No.
IN The

Supreme Court of tfje Ifiutrb #>tate£
S.O. & M.B.
Petitioners,
V.

The District of Columbia
Respondent.
On Petition for a Writ of Certiorari
to the District of Columbia Court of Appeals
PETITION FOR A WRIT OF CERTIORARI
...Stephen P. Ollar ■■
Miriam L. Berman
. 8401 Farrell Drive.
Chevy Chase, MD 20815
(907) 382-7675
stephenpollar@gmail.com

RECEIVED
JUL 1 2020

QUESTION PRESENTED
This Court has held that the state and federal
government’s use of fabricated evidence and perjured
testimony violates an individual’s Due Process rights
so as to render a criminal proceeding fundamentally
unfair. While a number; of states, including the
District of Columbia, afford substantive and
procedural protections to parents and children in
civil neglect proceedings similar to those made
available to a criminal defendant, the breath of these
protections as required by the Constitution, where
the government uses fabricated evidence and
perjured testimony, is still unknown.
The question presented is:
Whether the Fifth Amendment prohibits the
District of Columbia’s use of fabricated evidence and
perjured testimony in a civil child neglect
proceeding, and the appropriate remedy thereof.

n

PARTIES TO THE PROCEEDING
Petitioners are S.Q. & M.B. Pursuant to District
of Columbia statute and court rules regarding
privacy in child neglect proceedings. Petitioners
initials, and that of their minor child, were used in
the case caption of the proceedings below.
Petitioners recognize, however, that by filing pro se
their name and contract information must appear on
the caption and signature page of this writ of
certiorari.
Respondent is the District of Columbia. No party
is a corporation.

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED......................

n

PARTIES TO THE PROCEEDING.........

iii

TABLE OF CONTENTS.........................

iv

TABLE OF AUTHORITIES...................

vi

OPINIONS BELOW...............................

1

JURISDICTION........................ ..............

1

CONSTITUTIONAL AND STATUTORY.

1

PROVISIONS INVOLVED...... ..............

1

STATEMENT OF THE CASE..................

1

A. Factual Background
REASONS FOR GRANTING THE PETITION

3

13

I. THE COURT OF APPEALS DEPARTED
FROM BASIC NOTIONS OF DUE PROCESS
AND ANALOGOUS PROTECTIONS THIS
COURT HAS ESTABLISHED........... ...... .
.13
A. Petitioners did not receive due process notice
of the allegations of neglect as the only
allegation in the District’s petition was a
fabrication ....... ..... ,.......... ...... ...... ................ 14
B. Without a valid petition the District lacked
standing and the Court lacked jurisdiction........ 16
C. The District’s use of fabricated evidence and
perjured testimony rendered the entire neglect
proceeding fundamentally unfair..................... 20
II. THIS IS A VITALY IMPORTANT AND

iv

:
!

•i.

\
-■

i

:•

>

.o-'

MARRING .ISSUE

......22:

III.-PET E1I0NERS' PRO SE STATUS SHOULD
NOT DISCOURAGE THE COURT FROM
GRANTING CERTIORARI...
.24

•!

.i

i

CONCLUSION...,,.,,...:..

• i .> < ■ > v »-«

^*0

4

■*

APPENDIX A
APPENDIX B (Documents to be filed under seal)

;•

f

*

*.
, V ■

A

.1

i.

*
/■

b

V
i

*

y
*
%
I

TABLE OF AUTHORITIES
CASES

Page

17
Allen v. Wright, 468 U.S. 737 (1984)..................
Bank of Nova Scotia v. United States, 487 U.S.
250 (1988).................... ........ ....................
.......20
Chapman v. California, 386 U.S. 18 (1967)
20
Da.ube.rt v. Merrell Bow Pharms., Inc,, 509 U.S.
579 (1993)............................. ..............................
,8
Greene v, McElroy, 360 U.S. 474 (1959)....... ......
9
Hardwick v, Cnty. of Orange, 844 F. 3d 1112 (9th
Cir. 2017)............ ...............................
2
In re Jam.J., 825 A.2d 902 (D.C. 2003)
.15, 20
Kotteakos v. United States, 328 U.S. 750 (1946).... 21
Mathews v. Eldridge, 424 U.S. 319 (1976)
15
16
Medina v. California. 505 U.S. 437 (1992)
Meyer v. Nebraska, 262 U.S. 390 (1923)...
13
Napue v. Illinois, 360 U.S. 264 (1959)..... .
20
12
Parham v. J.R., 442 U.S. 584 (1979)........ .
R. & G, Orthopedic Appliances and Prosthetics,
21
Inc. v. .Curtin, 596 A.2d 530 (D.C. 1991)
Santosky v. Kramer, 455 U.S. 745 (1982)..
15
17
Stanley v. Illinois, 405 U.S. 645 (1972).....
12
Troxel v. Granville, 530 U.S. 57 (2000)__
17
Warth v. Seldin, 422U.S. 490 (1975)........
CONSTITUTION AND STATUTES
U.S. Const, amend. V................. ..........
28 U.S.C. § 1257(a)................................
D.C. Code § 16-2301(9)(A)(ij..... ...........

vi

1.
1
... 5

'

D.C. Code § 16-2301(9)(A)(ii)
DC. Code § 16-2316(c)........
D.C. Code § 16-2324(a)...... ..

5
5
19

OTHER AUTHORITIES
Fed. R. Civ. P. 11.......
19
Fed. R. Civ. P. 12(b) ..
20
Fed. R. Civ. P. 60.,,....
19
Fed. R. Civ. P. 61......
..22
Fed. R. Crim. P. 5.1(f)
19, 20
Andrea Ball and Eric Dexheimer, Dozens of CPS
case workers caught lying, falsifying documents,
Austin American-Statesman (Jan. 13, 2015),
https://projects.statesman.com/news/cps-missedsigns/wrongdoing.html.......................................... 2
Joseph Goldstein, ‘Testilying’ by Police: A
Stubborn Problem, N.Y. Times (Mar. 18, 2018),
https://www.nytimes.com/2018/03/18/nyregion/
testilying-police-perjury-new-york.html............... 2
Raymond C. O’Brien, An Analysis of Realistic Due
Process Rights of Children Versus Parents, 26
Conn. L. Rev. 1209 (1994).................................... 13

Vll

OPINIONS BELOW
The opinion of the District of Columbia Court of
Appeals (In re D.O., No.: 17-FS-444), Petition
Appendix A at 2 (“Pet. App. A”), and relevant order
of the trial court (In re D.O., N-204-16), Petition
Appendix B (sealed) at 2 (“Pet. App. B”), are
unreported.
JURISDICTION
The District of Columbia Court of Appeals issued
its opinion on August 23, 2019. Pet. App. A at 2. It
denied motion for rehearing on February 12, 2020.
Pet. App. A at 13. On March 19, 2020, the Supreme
Court issued an order extending the deadline to file,
any petition for a writ of certiorari to 150 days. This
Court has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The. Fifth Amendment to the United States
Constitution states in relevant part: “No person shall
... be deprived of life, liberty, or property, without
due process of law.,..” U.S. Const, amend. V.
STATEMENT OF THE CASE
The well-documented problem of public officials
fabricating evidence and offering false testimony
extends to the prosecutors. and social workers that
compose the nation’s many child protective services
agencies
and
accompanying
child
neglect

1

proceedings.-1 While this Court has well defined the
prohibition on the use of fabricated evidence and
perjured testimony in criminal proceedings, it has
yet to address such conduct in a civil child neglect
proceeding. Undoubtedly, the prohibition applies
equally, but the civil, nature of child neglect
proceedings raises novel questions as to the
appropriate remedy and'to the continued jurisdiction
of the courts and standing of the state.2
Petitioners challenged the District of Columbia's
(“the District’-) unrefuted use of fabricated evidence
and perjured testimony in a child neglect petition
and at the subsequent probable cause hearing as
contrary to the Fifth Amendment, but the District of
Columbia Court of Appeals failed to address this
issue. Remarkably, the court fully omitted the
District’s misconduct from its opinion. In place of an
analysis, the Court of Appeals held in a footnote that
the District possessed-standing and the trial court
jurisdiction. How the court could arive at this
holding without discussing the prejudice of the
District’s use of fabricated evidence and perjured
testimony is unclear,.

1 See, e.g;, Hardwick v. Cnty. of Orange, 844 F.3d 1112 (9th, Cir.
2017) (perjury by a state social worker); Joseph Goldstein,
‘Testilying’ by Police: A Stubborn Problem, N.Y. Times (Mar,
18, 2018), https://www.nytimes.com/2018/03/18/nyregion/
testilying-police-perjury-new-york.html; Andrea Ball and Eric
Dexheimer, Dozens of CPS ca-se workers caught lying, falsifying
documents, Austin American-Statesman (Jan. 13, 2015),
https://projects. statesman, com/news/cps-missed-signs/
wTongdoing.html.
2 “The state” is used herein to collectively refer to both state
and federal governments, to include the District of Columbia, :

This Court should grant review to resolve the
important constitutional question left unanswered
by the lower court: what is the appropriate remedy,
as required by the Fifth Amendment, when the state
uses fabricated evidence and perjured testimony in a
civil child neglect proceeding, where fundamental
liberty interests are at stake,. Petitioners submit,
and’had submitted to the lower court, that (1) due
process notice of the allegations of neglect was
lacking as the only allegation in the petition was a
fabrication, (2) the District lacked standing and the
trial court lacked jurisdiction without a “powerful
countervailing interest” or valid petition, and (3) the
District’s misconduct prejudiced Petitioners and
rendered the entire proceeding fundamentally
unfair.
A.

Factual Background

On June 25, 2016, Petitioners’ daughter, D.O.,
sustained injury from an accidental fall onto the
back of her head from' Petitioner S.O.’s arms.
Although visibly appearing uninjured, Petitioners
took D.O. to the hospital where it was discovered
that she had fractured her skull in the fall. While
there, the District of Columbia’s Child and Family
Services Agency (“CFSA") interviewed Petitioners
regarding D.O.’s injuries.
Petitioners provided
consistent audio-recorded interviews, a reenactment
of the fall, and agreed to a home visit.
The
investigators never spoke with either Petitioner
again.
Instead, the District directed Dr. Morrell
Atkinson, a pediatrician with Children’s National
Hospital (“Children’s”), to investigate the etiology of
D.O.’s injuries. Without disclosing her investigatory

3

role,
Dr. Atkinson interviewed Petitioners,
performed a physical examination of D.O., and
ordered medically unnecessary and painful tests to
be performed on D.O. without Petitioners’ consent.
Dr. Atkinson’s tests subjected D.O. to 72-hours of
needless starvation for an unnecessary MRI of her
spine, painful lacerations of her feet for-a battery of
blood tests, and poisoned her with dangerous
radiation and anesthetic. ' Upon learning their
daughter was being abused by hospital staff,
Petitioners confronted Dr. Atkinson, informed her
that she committed a battery on D.O., and demanded
communication.
As a result of that encounter, Dr. Atkinson
contacted CFSA investigator Channell Reddrick, and
they agreed to remove Petitioners from the hospital.
The next day, Reddrick arrived at D.O.’s hospital
room with completed removal paperwork and
hospital security to remove Petitioners. Yet, the
District would claim that Reddrick merely intended
to ask Petitioners additional questions. Without
exigent circumstance or judicial authorization, D.O.
was unlawfully seized from Petitioners’ care from
their private hospital room in violation of their
Fourth Amendment rights. The removal enabled Dr.
Atkinson to continue subjecting D.O. to more painful
testing to look for non-existent evidence of abuse.3
Rather than correct the misdeeds of Reddrick and
Dr. Atkinson, Assistant Attorney General Lynsey
3 After Petitioners’ removal, Dr. Atkinson subjected D.O, to a
second MRI to look for non-existent evidence of shaking.
Petitioners could not consent due to their removal; yet; D.O.’s
medical records reveal that M.B.’s signature was forged on the
consent form for the anesthesia.

4

Nix drafted a neglect petition that singularly alleged
D.O.’s injuries were “not medically possible,”
invoking the District of Columbia’s permissive
inference of neglect statue.'1 Pet. App. B at 158-59.
There was no actual evidence of abuse or neglect.
However, the investigation and medical records in
the District’s possession contradicted this allegation.
Those records state that the District only spoke to
two physicians, Dr. Xian Zhao, a Children’s
emergency
room
physician
who
informed
investigators that D.O.’s injuries “can be ruled as
normal,” and Dr. Atkinson, who was “unable to fully
assess” D.O.’s injuries.
Undeterred by the truth, Nix made numerous
false representations at the probable cause hearing
to support the court’s necessary finding of probable
cause to believe the allegations in the petition were
true. She said:
The medical evidence we have right now from
the [ER] doctor at Sibley, the [ER] doctor from
Children’s, Dr. Atkinson from her review of
the medical records, from the neurology
doctor, from the ophthalmology doctor said
this is not possible.

4 D.C. Code § 16-2316(c) (“Where the petition alleges a child is a
neglected child by reason of abuse, evidence of illness or injury
to a child who was in the custody of his or her parent, . . . for
which the parent . . . can give no satisfactory explanation shall
be sufficient to justify an inference of neglect.."). The District’s
petition exclusively relied on the permissive inference of
neglect to satisfy its burden to demonstrate (1) D.O. was
neglected, D.C. Code § 16-230l(9)(A)(i), and (2) D.O. was
without proper parental care or control, D.C. Code § 162301(9) (A) (ii). See infra, Part LA.

5

Accidents happen, but the bottom line is, the
medical evidence we have today, Sibley,
Children’s, multiple doctors at Children’s, say
a simple fall, a simple drop from chest height
to the hardwood floor didn’t cause these
significant injuries.
Pet, App. B. at 163-65. Nix then called CFSA
supervisor Brooke Beander, who similarly testified:
Q. And, from your review of any medical
records that you have, who expressed concern
that the report of the injury . . . could not have
caused injuries as significant as those [D.O.]
suffered?
A. Every doctor that she seen from Sibley
Hospital, the Children’s ER, to ophthalmology
to neurology to CAPC to PICU.
Q. And, where did you get the information that
the consistent statement about the fall is not
possibly the cause of these injuries.
A, From every doctor from Sibley Hospital to
the ER to the CAPC.
Pet. App. B. at 166-69, Despite lacking any medical
record to support these representations and despite
speaking with only two physicians, neither of whom
stated that D.O.’s injuries were “not medically
possible” or that Petitioners’ account of the
accidental fall did not satisfactorily explain her
injuries, the District deliberately and knowingly
represented the opposite. Moreover, the wording
between Nix’s statements and Beander’s testimony

6

is too strikingly inaccurate and identical to be mere
coincidence, suggesting prior coordination. Based on
this fabricated evidence and perjured testimony, the
court “reluctantly” found probable cause owing
exclusively to the false representation that the
medical community as a whole believed D.O.’s
injuries were “not medically possible,1’
At trial, the District failed to produce one expert
who would opine that either D.O.’s injuries were “not
medically possible” or that Petitioners’ account did.
not satisfactorily explain D.O.’s injuries.
Drs,
Atkinson and Zhao both testified that D.O.’s injuries
were possible from a single impact to the back of the
head, as Petitioners had described.
Dr. Louis
Vezina, a Children’s radiologist, testified that he
sees children with similar injuries “almost every
day” and D.O.’s injuries were pretty typical with
blunt force trauma like accidental falls. Dr. Vezina
and Dr. Woo Kim, a Sibley Hospital emergency room
physician, also testified that D.O.’s injuries were
only “mild” to “moderate” in severity.
Dr. Atkinson’s testimony was the crux of the
District’s case.
She was twice asked what
determination she was able to make “to a reasonable
degree of medical certainty.” Her first response was,
“The fractures to [D.O.’s] skull are the result of
significant impact trauma to the head.” Pet. App. B
at 172-73. Her second response was that D.O.’s head
injuries “are the result of blunt force impact to her
head.” Id. at 179-80. Dr. Atkinson further explained
that skull fractures are always “the result of some
type of blunt force trauma to the skull” and that
“any type of impact to the head is blunt force.” Id. at
173, 178, 182. This includes the accidental fall as

7

described.
When directly asked whether she
believed that D.O.’s skull fractures were “explained
or unexplained,” Dr. Atkinson equivocated, “I have
concerns about the degree of injury that I’m seeing
with the fall as. described.”
Id. at 176, 181.
Undoubtedly, the “subjective belief or unsupported
speculation” of "a doctor, who admitted at trial to
inappropriate conduct with Petitioners’ daughter,
does not qualify as an expert opinion as they were
not based on any reliable methodology. Daubert u.
Merrell Dow Phctrms., Inc.. 509 U.S. 579, 590 (1993).
Despite being raised, the Court of Appeals failed to
address the admissibility of Dr. Atkinson’s
testimony,
Conversely, Petitioners called five highly
accomplished experts: two biomechanical engineers,
two pediatric radiologist, and one pediatric
neurosurgeon. Each of whom opined, to reasonable
degrees of professional certainty, that D.O.’s injuries
were consistent with- Petitioners’ account. These
opinions were further supported with numerous
peer-reviewed
articles.
and
case
studies,
demonstrating identical injuries from similar falls of
infants from even a lower height. In total, nine
experts, including four of the District’s own, offered
testimony and opinions favorable to Petitioners.
Yet, despite the overwhelming weight of
evidence, the trial court ruled against Petitioners
based solely on an unfavorable credibility
determination of Petitioners, rather than affirmative
evidence from the District, whose sole burden it was
to prove neglect.5 The trial court never found that
5 Based on its -unfavorable credibility determination, the triai

8

any medical provider or medical record stated that
D.O.’s injuries were “hot medically possible/’ the
petition’s sole allegation of neglect. It was only after
the District failed to produce such evidence that the
full extent of its previous misrepresentations became
apparent.6
On appeal, Petitioners raised, inter alia, the
District’s use of fabricated evidence and perjured
testimony and the glaring absence of expert
testimony to support the trial court’s drawing of the
court discredited Petitioners’ account of an accidental fall. Pet.
App. B at 122*27.
It then disregarded Petitioners’
uncontradicted experts because those experts "were relying
solely” on. an account given by Petitioners. I'd. at 123-24. Like
all experts, Petitioners’ experts actually relied on their
education and experience, the academic literature, and the
medical records to opine that D.O.’s injuries were consistent
with a single vertical fall from a caregiver’s arms, as
Petitioners had described; otherwise, their testimony would
have been inadmissible. The trial court erred in bypassing the
necessity of expert testimony and ruling solely on the character
of the parents.
® Petitioners also learned that the District destroyed Reddrick’s
handwritten notes after being subpoenaed and withheld
additional discovery. A separate judge of the trial court
reopened the neglect proceeding to compel production. While
acknowledging that it withheld discovery, the District refused
to produce those documents. The trial court ultimately ruled
that procedurally it did not have jurisdiction to reopen the
neglect proceeding. This, however, does not diminish that the
District withheld and destroyed evidence in a matter where
Petitioners’ Due Process rights were at stake. Cf. Greene v.
McElroy, 360 U.S. 474, 496 (1959) ("[W]here governmental
action seriously injures an individual, and the reasonableness
of the action depends on fact finding, the evidence used to prove
the. Government’s case must be disclosed to the individual so
that he has an opportunity to show that it is untrue.’’).

9

permissive inference of neglect. The District, in
turn, purposefully refused to deny or refute the
unmistakable evidence in the record of misconduct.
The District also failed to cite to any expert opinion
that D.O.’s injuries were not satisfactorily explained.
Embarrassingly, when pressed at oral arguments
to direct the court to a definitive expert opinion, the
District could not do so. Instead, the District filed a
letter with the court weeks after oral arguments—
and long after briefing had concluded—in which it
took a never before presented sentence1 from Dr:
Atkinson’s testimony out of context and argued for
the first time that it was a part of her opinion. The
court overruled Petitioners’ objection to the District’s
post hoc arguments and afforded them no
opportunity to rebut it. Pet. App. A at 13.
The District of Columbia Court of Appeals’
unreported opinion fully obfuscated the Districts
misconduct from public scrutiny and rephrased
Petitioners’ arguments, rendering any suggestion of
misconduct imperceptible. See infra, Part IB. Those
rephrased arguments were then summarily
•dismissed with in a footnote.
With regard to the missing expert opinion, the
court wrote, “Dr. Atkinson testified that D.O.’s skull
fractures were the result of blunt force trauma
impact to the head, and that a simple household fall
should not have resulted in the degree of .injury
sustained by D.O.” Pet. App. A at 9. This is flatly
not consistent with Dr. Atkinson’s opinion or
supported by the record, as discussed above. The
latter portion of this statement was the .out-ofcontext sentence the District submitted after oral
arguments. The court even failed to justify the

10

glaring contradiction this statement has with Dr.
Atkinson’s definitive testimony that D.O.’s injuries
were consistent with a single vertical fall as
Petitioners’ had described. The Court of Appeals
thus created affirmative evidence for the District
and singularly relied on it to rule against
Petitioners.7
Not to belabor the lower court’s opinion, one
additional issue that highlights the overwhelming
absence of evidence and efforts taken to uphold the.
trial court’s ruling is the Court of Appeals’ holding
that Petitioners deprived D.O. of proper care and
control.
The court did not cite evidence of a
deprivation.
Rather, according to the court,
Petitioners failed to provide proper care because (1)
their “behavior did not demonstrate appropriate
care,” (2) they waited until the very moment that
D.O. exhibited any symptomology before seeking
medical care, and (3) for additional factors unrelated
to D.O.’s care.8 Pet. App. A. at 10. Notably, the
District’s
own witnesses
attested
to the
appropriateness of Petitioners’ behavior and decision
making. Dr. Kim, the -first physician to. see D.O.,
asserted that the brief lapse of a few hours between
the accident and coming to the hospital was not
concerning and nothing raised a. “red flag.” He
7 Nowhere in the 118-pages of findings of fact and conclusion of
law, written by the District and adopted nearly verbatim by the
trial court, is this purported opinion of Dr. Atkinson stated.
Pet. App. B. at 2-119. It was truly created in the first instance
on appeal.
8 The court confusingly held that Petitioners' military training,
lack of hysterics, and lawful audio-recording of a mandatory
follow up visit with Dr. Atkinson evidence a lack of proper care.

11

further attested, “to be honest with you, I felt
[Petitioners] were quite appropriate.” Dr. Zhao,
likewise, attested that Petitioners showed the
appropriate level of concern for their daughter. No
expert testified that any decision of Petitioners
caused any detriment to D.O.9
In so holding, the lower court departed from
precedent set by this Court and created a per se rule
that a parent fails to provide his/her child with
proper care when electing not to seek medical
•treatment immediately following an accident,,
regardless of the severity of the accident, absence of
symptomology, and lack of detrimental effect on the
child. See Troxel v. Granville, 530 U.S. 57, 58 (2000)
(“There is a presumption that fit parents act in their
children's best interests; there is normally no reason
for the State to inject itself into the private realm of
the family to further question fit parents’ ability to
make the best decisions regarding their children.”);
Parham v. J.R., 442 U.S. 584, 603 (1979) (“Simply,
because the decision of a parent . . . involves risks
does not automatically transfer the power to make
that decision from the parents to some agency or
officer of the state.”).
The appearance of the Court of Appeals’ decision
is troubling. Although issues of first impression
were raised, the court delivered an unreported
opinion, in which it failed to address those issues,
obscured clear and unrefuted misconduct by
members of the bar, and conjured an expert opinion
9 The petition’s only allegation of neglect is that D.O.’s injuries
were “not medically possible." See infra, Part IA. Petitioners
never received notice that they would have to defend their
character and parental decision making at trial.

12

where non-existed. The number of issues present in
the court's opinion cannot be addressed in a single
writ for certiorari. This writ is thus limited to the
District’s use of fabricated evidence and perjured
testimon}' as it presents the greatest danger to the
inviolability of the Due Process Clause and because
it substantially undermines the integrity of these
sealed family proceedings—let alone the integrity of
the bar.
REASONS FOR GRANTING THE PETITION
I.

THE
COURT
OF
APPEALS
DEPARTED FROM BASIC NOTIONS
OF DUE PROCESS AND ANALOGOUS
PROTECTIONS THIS COURT HAS
ESTABLISHED

The fundamental liberty interest in a parents5
right to the care, custody, and management of their
children is not at issue. This parental presumption
has been firmly established starting with Meyer u.
Nebraska, and proceeding through the present. 262
U.S. 390 (1923).10 At issue are the substantive and
procedural protections necessary to safeguard the
parental presumption from unwarranted and
malicious government interference into the sanctity
of the family.
Petitioners appropriately appealed the District’s
use of fabricated evidence and perjured testimony.
10 See also Raymond C. O’Brien, An Analysis of Realistic Dae
Process Rights of Children, Versus Parents, 26 Conn. L. Rev.
1209, 1215 (1994).

13

In so doing, Petitioners argued that this misconduct
encroached on several due process issues: notice,
standing, jurisdiction, and fairness/prejudice. For
reasons unknown, the Court of Appeals passed on
answering these important questions, but its
indifference does not diminish the gravity of these
arguments.
A.

Petitioners did not receive due
process notice of the allegations of
neglect as the only allegation in the
District’s petition was a fabrication

Putting aside the fabrications in the District’s
petition, the petition’s only allegation of neglect was
the purported existence of “not medically possible”
injuries.11 Pet. App. B at 158-59. The petition relies
exclusively on the statutory permissive inference of
neglect, rather than actual, evidence of neglect. See
supra n. 5.
Petitioners were only expected to
marshal the facts in their defense of this allegation,
and in fact, did so quite effective^. In the short
three-month period between D.O.’s seizure and the
start of the trial, Petitioners were able to secure five
highly accomplished, experts—three of whom
testified without compensation or compulsion—who
would all opine to reasonable degrees of professional
11 The petition is so poorly written that it fails to state any
clear allegation of neglect. Petitioners had to infer that this is
the District’s justification for the unlawful seizure of D.O. from
the following sentence: “At that point, given the fact that the
parents’ explanation of the cause of injuries was hot medically
possible, and they refused to provide any additional accidental
account, the cause of [D.O.'sj injuries is unknown, and nonaccidental trauma cannot be ruled out.” It is remarkable that
the District justified its conduct oh an inability to prove the
negative-.

14

certainty that D.O.’s injuries were medically possible
and consistent with Petitioners’ account of an
accidental fall.
These opinions were further
supported
with
numerous
peer-reviewed
publications. In contrast, the District only had the
subjective concerns of one admittedly . inappropriate
doctor. Petitioners never received notice that they
would be expected to marshal evidence to defend
their general character and parental decision
making, which the tidal court exclusively relied on to
find against Petitioners.
When the fabrication of the petition’s onlyallegation is considered, the petition becomes
nothing more than an empty vessel making noise.
As mentioned, both the drafter and attestor of the
petition knew that no medical record or physician
had informed the District that D.O.’s injuries were
“not medically possible.” Quite the contrary, the
District was informed that her injuries “can be ruled
as normal.” So, if it is discovered that a petition is
mo longer viable, what is the appropriate remedy?
When analyzing'the appropriate framework for
assessing
procedural
due
process
in
neglect/dependency proceedings, this Court has
previously relied on the Mathews v. Eldridge
balancing test, 424 U.S. 319 (1976); see Santosky v.
Kramer, 455 U.S. 745, 745-46 (1982) (termination of
parental rights). However, the District of Columbia
has statutorily afforded greater protections in
neglect proceedings. In re Jam.. J., 825 A.2d 902, 915
(D.C.. 2003) (The District of Columbia’s “neglect
statute, which sets forth the process that is due,
accordingly affords protections . . . similar to those
made available to a criminal defendant.”).

15

Accordingly, the. appropriate framework in the
District of Columbia should be whether the
procedure is offensive to the concept of “fundamental
fairness.” Medina u. California, 505 U.S. 437, 443
(1992).
.
Under either framework, though, .the only
appropriate remedy was for the Court of Appeals to
remand with instructions to vacate the petition and
dismiss the matter, without further proceedings.
Without a valid petition providing Petitioners notice,
the “risk of an erroneous deprivation of a private,
interest" .was considerable and the complete absence
of notice flatly “offend [edj some principle of justice so
rooted in the traditions and conscience of our people
as to be ranked as fundamental.” Id. at 443, 445. It
is simply inconceivable that a family could be
subjected to prolonged separation and a full-blown
factfinding hearing without, even rudimentary notice
of the allegations against them. Finally, a valid
petition also serves an important res judicata role in
prohibiting the district from relitigating the same
issues of fact and allegations of neglect.
B.

Without a valid petition the District
lacked standing and the Court lacked
jurisdiction

Historically, state authorities sought to use their
parens patriae authority to remove children based on
little more than a belief that the parents followed an
immoral lifestyle or failed to fulfill the authorities’
expectations of ideal parenting. This Court departed
long ago from antiquated notions that the state has
carte blanche authority to intervene in. the rights of
parents and the sanctity of the family.
State
standing to intervene has rightfully been precluded

16

in cases where it inhibits the parents’ right to, inter
alia, establish a home and rear a child, control their
child’s education and religion, choose medical care
for their child, and generally, the right to maintain
the companionship, care, custody, and management
of their child: See generally. Stanley v. Illinois, 405.
U.S. 645, 651 (1972). The state is restrained in these
types of actions because they infringe upon a
fundamental parental presumption, and only a
“powerful countervailing interest” could warrant
such interference. Id.
This is not to say that the state cannot intervene
•to protect a child from abuse or neglect, but any
arbitrary exercise of state authority clearly fails to
satisfy the requirement of a “powerful countervailing,
interest.”
Where the state’s basis for such
intervention is a fabrication and its petition a
nullity, the state lacks any basis from -which it could
possibly override the parents’ fundamental liberty
interests. Thus, the state is not “entitled to have [a]
court decide the merits of the dispute.” Allen v.
Wright, 468 U.S. 737, 750-51 (1984) (citing Warth.v.
Seldin, 422 U.S. 490, 498 (1975)) (establishing the
three-factor test for standing in federal courts).
Petitioners argued the District lacked standing
because the petition contained only one allegation of
neglect that the District knew to be a fabrication.
Si'milaidy, the trial court’s necessary finding of
probable cause to believe the allegations in the
.petition were true was void as it was precured
through
the
use
of perjured
testimony.
Substantively, there was no valid “powerful
countervailing interest” that warranted interfering

17

in the sanctity of Petitioners’ family.12 Procedurally,
there was no valid petition filed with the trial court,
and served on Petitioners, from which the District
could assert standing.
Yet, the Court of Appeals mistakenly represented
this argument as something completely different:
“[T]he District lacked standing to file the neglect
petition . . . without a determination that there was
probable cause to believe the allegations were true/’
First, the court’s rephrased argument is illogical. No
one would contend that the District’s ability to file a
neglect petition was contingent on the trial court
making a finding, which could only be made after the
District filed a. petition,
Second, the court’s
rephrased argument fails to address the absence of a
“powerful countervailing interest” that justified the
District’s infringement into Petitioners’ family.
Third, it ignores the fact that the trial court failed to
find that D.O.’s injuries were ‘'not medically
possible," the one finding it was obligated to make
pursuant to this petition. Finally, the court failed to
address the procedural problem that arises in the
absence of a valid petition filed with the trial court
or served on Petitioners, See also, supra, Part 1A
(notice). The implicit holding from this is that the
District can seize a child and subject any family to a
full-fledged neglect proceeding without either a valid
petition or probable cause.
No civil or criminal proceeding, in either state or
federal court, would be permitted to proceed if it
)2 Petitioners cannot say what was the District’s “interest” in
fabricating evidence, but the facts suggest it was done to avoid
accountability for the District’s abuse, of D.O. by Dr. Atkinson,
a state actor, and for the District’s unlawful seizure of D.O.

18

were known that the initiating document (i.e. the
complaint, indictment, petition, etc.) was a
fabrication, or if a judicial determination was
obtained
through
use
the
of
fraud,
misrepresentations, or misconduct. See, e.g., Fed. R.
Civ, P. 11 (sanctions for improper purpose); Fed. R.
Civ. P. 60 (relief from judgment based on fraud,
misrepresentations, or misconduct); Fed. R. Crim. P.
5.1(f) (dismissal of complaint for a lack of probable
cause); D.C. Code § 16-2324(a) (setting aside Family
Court orders obtained by fraud),
The only
appropriate remedy is reversal. This is even more
true where the ultimate judicial determination was
inconsistent with the original allegation. Yet, the
Court of Appeals has now held otherwise in -the
context of neglect proceedings.
With regard to the trial court’s jurisdiction over
this neglect proceeding and, by extension,
jurisdiction over Petitioners’ family, the reasoning
above applies equally. The trial court only has
subject matter jurisdiction over “proceedings in
which a child ... is alleged to be delinquent,
neglected, or in need of supervision.” D.C. Code §
il-li01 (a)(13) (emphasis added). Just as a civil
complaint must allege sufficient facts to establish
jurisdiction, the District’s petition is the vehicle that
alleges a neglected child and grants the court
jurisdiction. ■ When discovered that the petition’s sole
allegation of neglect is a fabrication or lacks
probable cause, the trial court lacks jurisdiction to
hear the matter further. The Court of Appeals has
now effectively held that a neglect proceeding may
.continue, a great expense and suffering to the
innocent family, despite a. judicial determination
that no probable cause exists to believe the

19

allegations in the petition are true, the lowest
possible judicial standard. That is an, affront to
basic pleading standards, judicial efficiency, and the
rights of the accused. See, e.g.. Fed. R, Civ. P. 12(b);
Fed. R. Crim. P. 5.1(1).
Ci

The District’s use of fabricated
evidence and perjured testimony
rendered
the
entire
neglect
proceeding fundamentally unfair

Though it presented an issue of first impression,
the Court of Appeals wholly dispensed with any
discussion of the prejudice associated with the
District's use of fabricated evidence and perjured
testimony, despite being raised in Petitioners’ brief.
The Court’s silence is remarkable as it is routine for
an appellate court to discuss the harmful affect that
a trial error has on the outcome of the proceeding.
Where fundamental liberty interests are at stake,
such analysis is necessary.
in answering this novel issue, the Court of
Appeals should have looked to this Court’s precedent
in criminal matters where the state has incorporated
fabricated evidence and perjured testimony. The’
criminal analog is appropriate not onfy because the
District “affords protections [in neglect proceedings] ,
. . similar to those made available to a criminal
defendant,” but also because the seizure and
prolonged removal of children from their parents is a
federal constitutional issue, warranting a heightened
level of protection commonly afforded to criminal
defendants. In re Jam.J., 825 A,2d 902, 915 (D.C.
2003).. Thus, Napue, Bank of Nova Scotia, and their
many progeny were the appropriate springboard for ■
the court to begin its analysis. Bank of Nova Scotia,

20

v. United States, 487 U.S. 250 (1988); Napue v.
Illinois, 360 U.S. 264. 269 (1959). These cases make
clear that the state’s use of fabricated evidence and
perjured testimony is a Chapman constitutional
error.. Chapman v. California, 386 U.S. 18 (1967).
.This., would mean that “before a federal
constitutional issue can be held harmless, the court
must be able to declare a belief that it was harmless
beyond a reasonable doubt.” Id. at 24. Because the
Court, of Appeals ignored the prejudice associated
with the District’s misconduct, it cannot be said now
that the error was harmless.
Furthermore, the burden was on the District to
demonstrate that its use of fabricated evidence and
perjured testimony was harmless. Id. Yet, the
District made no attempt to address or refute the
allegations of misconduct or to argue that such
misconduct was harmless. The District’s silence is
itself a concession of the validity of said misconduct.
Regardless, any attempt to refute the prejudice of
the District’s conduct is futile,
Because the
fabricated evidence was the sole allegation in the
petition, Petitioners entire trial strategy and the
evidence they presented was to refute this one
untrue allegation, which ultimately was not the
basis for the trial court’s ruling. The degree of
prejudice is considerable and would not be tolerated
in a criminal proceeding.
Of note, considering that neglect proceedings are
civil in nature, there exists an issue as to whether
the error ought to be held harmless beyond a
reasonable doubt. The District of Columbia has
previously adopted and applied the standard
articulated in Kotteakos to civil cases. R. & G.

21

Orthopedic Appliances and Prosthetics, Inc, u.
Curtin, 596 A.2d 530, 538-41 (D.C. 1991) (citing
Kotteakos u. United States, 328 U.S. 750, 764-65
(1946) (“But if one cannot say, with fair assurance,
after pondering all that happened without stripping
the erroneous action from the whole, that the
judgment was not substantially swayed by the error,
it is impossible to conclude that substantial rights
Even under this lower
were not affected.”)),
standard, reversal, was necessary because the
District’s use of fabricated evidence and perjured
testimony categorically affected the substantial
rights of Petitioners. See also Fed. R. Civ. P, 61 •
(identical to the District’s rule of procedure requiring
consideration of errors that affect a party’s
substantial rights).
II.

THIS IS A VITALY IMPORTANT AND
RECURRING ISSUE

Certiorari is warranted because the decision
below is not compatible with either this .Court’s
precedent or basic principles of due process. By
ignoring these issues and rendering its opinion
unreported, the Court of Appeals avoided public
scrutiny of these issues. But its message was clear:
there will be zero transparency and accountability
for -the District’s use of fabricated evidence and
perjured testimony in a child neglect proceeding.
The legitimacy of sealed neglect proceedings rests
in large part on the sense that the courts will ensure
that they are conducted fairly with due regard to the
rights of families. In the District of Columbia, the
Court of Appeals alone .delivers accountability when

22

misconduct occurs and ensures the integrity of the
bar. There is no intermediate appellate court on
which the public may rely. When the Court of
Appeals refuses to deliver justice, it transfers that
responsibility to this Court. That is the wrong
course of action, and this Court ought to correct it.
Irrespective of the lower court’s inaction, the
inability of public officials to conduct themselves
with regard for the truth is a problem. The recent
public attention that has been directed towards law
enforcement, in particular, demonstrates how wide
spread this issue has become. When it comes to the
truth, there should not be two separate standards:
one for the state and a second for everyone else. The
public has the absolute right to expect that state
officials do not fabricate evidence or perjure
themselves before a tribunal. When it relates to our
children, this expectation should be even greater.
This case is an ideal vehicle for the Court to
reassert that such misconduct, especially from
members of the bar, will not be tolerated. First, the
District’s misconduct is unmistakably evident in the
record. The District, for its part, has refused to
repudiate this fact.
Second, the constitutional
question was squarely presented in the District of
Columbia Court of Appeals (though that court did
not adequately address the issue). This Court
should not allow a lower court to neuter a
petitioner’s ability to seek review by simply ignoring
issues and filing unreported opinions. The Court of
Appeals had an obligation to fairly and fully consider
dispositive, issues supported with case law and the
record. At a minimum, this matter ought to be
remanded with instruction to fully address

23

Petitioners’ arguments and the inconsistencies
between the Court of Appeals’ holding and this
Court’s precedent.
Although this matter presents issues of first
impression as they relate to civil child neglect
proceedings, the constitutional issues raised and
appropriate remedies have been firmly established
by the Court in the context of other civil and
criminal proceedings. Thus, the facts and posture of
this case provide an excellent opportunity to rightly
extend the Fifth Amendment’s prohibition on the
state’s use of fabricated evidence and perjured
testimony to civil child neglect proceedings, where
the best interests of the child are indisputably
paramount.
III.

PETITIONERS’ PRO SE STATUS
SHOULD NOT DISCOURAGE THE
COURT
FROM
GRANTING
CERTIORARI

Petitioners appreciate the importance of being
represented by qualified members of the Court’s bar,
and their pro se status should not be considered
presumptuous. After Petitioners and their families
spent three quarters of a million dollars in legal fees
to dispute the District’s baseless allegations and
regain custody of their daughter, Petitioners can ill
afford additional debt, especially in these difficult
and uncertain economic times,
Petitioners are
fortunate they possess the legal training and
education necessary to effectively advocate for
themselves, but it is understood that Petitioners will
have to retain counsel should the Court grant

24

certiorari. In the interim, Petitioners only ask that
the Court afford the instant writ its due
consideration without regard to Petitioners’ pro se
status.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition for a writ of certiorari.

Respectfully submitted,

JLi-X

~ -s

StephenP. Ollar
Miriam Ollar
8401 Farrell Drive
Chevy Chase, MD 20815
(907) 382-7675
stephenpollar@gmail.com
Pro se Petitioners

July 8, 2020

25

